                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Unliquidated Obligations
                     Resulted in Missed
                     Opportunities to Improve
                     Drinking Water Infrastructure
                     Report No. 14-P-0318                   July 16, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Heriberto Ibarra
                                                     Janet Kasper
                                                     Doug LaTessa
                                                     Patrick McIntyre
                                                     Nicole Pilate
                                                     Mary Anne Strasser




Abbreviations

CFR            Code of Federal Regulations
DWSRF          Drinking Water State Revolving Fund
EPA            U.S. Environmental Protection Agency
GAO            U.S. Government Accountability Office
IUP            Intended Use Plan
OIG            Office of Inspector General
SFY            State Fiscal Year


Cover photo: A wastewater treatment plant in Stratford, Connecticut. (EPA photo)



 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                     14-P-0318
                                                                                                              July 16, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review               Unliquidated Obligations Resulted in
We performed this audit to           Missed Opportunities to Improve
determine whether the
U.S. Environmental Protection
                                     Drinking Water Infrastructure
Agency (EPA) has been
effective in identifying and           What We Found
deobligating unneeded
Drinking Water State Revolving       We found that the EPA and the five states        When hundreds of millions of
Fund (DWSRF) assistance              we reviewed took many actions to reduce          DWSRF dollars remain idle, states
agreement funds and                  DWSRF unliquidated balances, but those           miss opportunities to improve the
                                     actions have not reduced DWSRF                   health of their communities’
preventing unwarranted
                                     unliquidated balances to the goal of below       drinking water infrastructure and
accumulations of unliquidated                                                         the opportunity to infuse funds
obligations. Our objectives          13 percent of the cumulative federal
                                     capitalization grants awarded. For the           into the economy and create jobs.
were to determine whether
(1) EPA and state actions            period we examined the five states
taken to address large               reviewed—California, Connecticut, Hawaii, Missouri and New Mexico—executed
balances of DWSRF                    small numbers of loans each year and did not maximize the use of all DWSRF
unliquidated obligations             resources, including capitalization grant awards. State programs reviewed were
reduced such obligations, and        not adequately projecting the DWSRF resources that would be available in the
(2) state lists of projects to be    future to enable the states to anticipate the amount of projects needed to be
funded by capitalization grants      ready for loan execution in a given year. As a result, $231 million of capitalization
realistically reflect the projects   grant funds remained idle, loans were not issued, and communities were not able
that may be funded.                  to implement needed drinking water improvements.

This report addresses the            We also noted that states’ project lists included in the capitalization grant
following EPA goals and              application—called fundable lists—did not reflect projects that would be funded in
cross-agency strategies:             the current year and overestimated the number of projects that will receive
                                     funding. Less than one-third of the projects on the fundable lists we reviewed
  Working to make a visible         resulted in executed DWSRF loans during the current grant year. We found that,
   difference in communities.        generally, these states did not have a consistent “ready-to-proceed” definition.
  Protecting America’s              When projects are not ready to proceed, expected environmental benefits are
   waters.                           delayed. Because states use the fundable lists to justify their annual
                                     capitalization grants, the fundable lists should communicate to the EPA and the
                                     public the projects that will be funded with taxpayer money.

                                       Recommendations and Planned Corrective Actions

                                     We recommend that the Assistant Administrator for Water require states with
For further information,             unliquidated obligations that exceed the Office of Water’s 13-percent-cutoff goal
contact our public affairs office    to project future cash flows to ensure funds are expended as efficiently as
at (202) 566-2391.                   possible. We also recommend that the Assistant Administrator develop guidance
                                     for states on what projects are to be included on the fundable lists and require
The full report is at:               regions, when reviewing capitalization grant applications, to ensure states are
www.epa.gov/oig/reports/2014/        complying with the guidance. The EPA agreed to take sufficient corrective
20140716-14-P-0318.pdf               actions on most of the recommendations. The EPA still needs to take steps to
                                     ensure states have adopted the EPA’s guidance on the definition of “ready to
                                     proceed.”
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL




                                              July 14, 2014

MEMORANDUM

SUBJECT:       Unliquidated Obligations Resulted in Missed Opportunities to Improve
               Drinking Water Infrastructure
               Report No. 14-P-0318

FROM:          Arthur A. Elkins Jr.

TO:            Nancy K. Stoner, Acting Assistant Administrator
               Office of Water

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. EPA managers, in accordance with
established audit resolution procedures, will make final determinations on matters in this report.

The office responsible for implementing the audit recommendations is the Office of Water’s Office of
Ground Water and Drinking Water.

Action Required

Recommendation 3 and a portion of recommendation 1 are open and unresolved. In accordance with
EPA Manual 2750, the resolution process begins immediately with the issuance of this report. We are
requesting a meeting within 30 days between the Office of Water’s Director, Office of Ground Water
and Drinking Water, and the OIG’s Assistant Inspector General for Audit. If resolution is still not
reached, the Office of Water’s Director, Office of Ground Water and Drinking Water, is required to
complete and submit the dispute resolution request to the Chief Financial Officer to continue resolution.

We will post this report to our website at http://www.epa.gov/oig.
Unliquidated Obligations Resulted in Missed Opportunities                                                                14-P-0318
to Improve Drinking Water Infrastructure




                                   Table of Contents

 Chapters
   1     Introduction ......................................................................................................     1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Responsible Offices ...................................................................................         3
                 Scope and Methodology ............................................................................              3
                 Prior Audit Coverage..................................................................................          4

   2     Unused Funds Resulted in Missed Opportunities to Improve
         Drinking Water Infrastructure ..........................................................................                5

                 Efficient Use of Funds Required.................................................................                5
                 Unliquidated Obligations Remain High .......................................................                    6
                 Financial Projections of DWSRF Resources Needed to
                        Maximize Fund Utilization ................................................................               8
                 Idle Funds Cause Diminished Results and Missed Opportunities...............                                     9
                 Recommendation .......................................................................................          9
                 Agency Comments and OIG Evaluation .....................................................                        9

   3     More Ready-to-Proceed Projects Would Improve
         Drinking Water Infrastructure ..........................................................................                11

                 Fundable Lists Should Contain Projects Expected to Be
                       Executed Within 1 Year ....................................................................               11
                 States Overestimate Projects That Will Receive Funding ...........................                              12
                 Projects on Fundable Lists Not Ready to Proceed to Construction ............                                    14
                 Environmental Improvements Are Delayed ................................................                         15
                 Recommendations .....................................................................................           16
                 Agency Comments and OIG Evaluation .....................................................                        16

   Status of Recommendations and Potential Monetary Benefits .............................                                       18



 Appendices
   A     Agency Response to Draft Report                                                                                         19

   B     April 14, 2014 Office of Water’s Strategy                                                                               24

   C     Distribution                                                                                                            30
                                  Chapter 1
                                   Introduction
Purpose
            The purpose of this audit was to determine whether the U.S. Environmental
            Protection Agency (EPA) has been effective in identifying and deobligating
            unneeded Drinking Water State Revolving Fund (DWSRF) assistance agreement
            funds and preventing unwarranted accumulations of unliquidated obligations.
            An unliquidated obligation is the unexpended balance remaining from the amount
            of federal funds that the EPA has obligated to an agreement. Our objectives were
            to determine whether:

                  EPA and state actions taken to address large balances of DWSRF
                   unliquidated obligations reduced such obligations.
                  State lists of projects to be funded by capitalization grants realistically
                   reflect the projects that may be funded.

Background
            The Safe Drinking Water Act Amendments of 1996 established the DWSRF to
            provide states with a financing mechanism for ensuring safe drinking water to the
            public. Since the program’s inception in 1996 through March 1, 2013, the EPA
            awarded over $15.5 billion in DWSRF capitalization grants to states. Of that
            amount, $2 billion has remained unliquidated. An Office of Water manager
            indicated that 17 of the 50 states and Puerto Rico, or 34 percent, have
            unliquidated obligations that exceed 13 percent. The Office of Water’s current
            focus is states with unliquidated obligation balances that approximately equal
            2 years’ worth of grants being open, which is roughly the national average of total
            unliquidated obligations to federal capitalization grants awarded, or 13 percent.
            Prior Office of Inspector General (OIG) audits identified that the EPA’s internal
            controls have not always been effective in preventing unwarranted accumulations
            of unliquidated obligations.

            The Safe Drinking Water Act Amendments of 1996 provided the EPA with the
            authority to enter into capitalization grant agreements with eligible states to
            further health protection and promote the efficient use of fund resources.
            Annually, capitalization grants are made available to each state and Puerto Rico
            for the purpose of providing loans to individual drinking water systems for
            infrastructure improvements. While states operate their own DWSRF programs,
            the EPA is responsible for oversight to ensure state programs are complying with
            applicable federal requirements throughout the project and close-out processes.



14-P-0318                                                                                        1
            The EPA allots federal DWSRF funds to the states according to a formula that
            reflects their proportional share of needs identified in the most recent Drinking
            Water Infrastructure Needs Survey. In order for a state to receive the DWSRF
            funds allotted to it, the state must submit a complete capitalization grant
            application. Capitalization grant applications must include an annual Intended Use
            Plan (IUP) that contains the state’s Comprehensive List and a subset of that list—
            the fundable list—as shown in figure 1.

            Figure 1: General DWSRF priority setting process




            Source: DWSRF Program Operations Manual (Provisional Edition).

            The fundable list includes projects expected to receive assistance in the next year.
            The DWSRF Program Operation Manual states that the IUP is the focal point of
            the capitalization grant application and agreement. It describes how the DWSRF
            program intends to allocate all of its available funds, including federal
            capitalization grants, state matching funds, loan repayment, fund interest earning,
            loan fees and bond proceeds. States must use all funds in accordance with an
            approved IUP.

            The Safe Drinking Water Act Amendments of 1996 require the state revolving
            fund to be available in perpetuity for providing financial assistance to water
            systems as shown in figure 2. A 20 percent match to the capitalization grant is
            required. Funds are transferred to the state on a reimbursement basis after
            assistance recipients have billed the state for work completed and the state requests
            a transfer. In general, the recipients are required to repay the loan with interest.
            However, a state can also provide additional loan subsidies to disadvantaged
            communities that include negative interest rates. Interest earnings from the state’s


14-P-0318                                                                                      2
            DWSRF fund account can also accrue and increase the balance of the state’s
            revolving fund.
            Figure 2: Sources and uses of states’ DWSRF




            Source: EPA Region 9 presentation dated September 25, 2012.

            The EPA Office of Water and EPA Regions 1, 6, 7 and 9 have been working with
            states that have high unliquidated obligation balances to identify the reasons more
            loans have not been executed and reduced unliquidated obligation balances.

Responsible Offices
            The Office of Water’s Office of Ground Water and Drinking Water is the EPA
            office with primary responsibility for the issues covered by this report.

Scope and Methodology
            We conducted this audit from March 2013 through March 2014, in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objectives.

            Our primary contact for this audit was the Office of Ground Water and Drinking
            Water. We also judgmentally selected four EPA regions (Regions 1, 6, 7 and 9)
            that had the highest percentage of capitalization grant unliquidated obligations.
            From those regions, we judgmentally selected the following five states with high
            unliquidated obligations for detailed review: California, Connecticut, Hawaii,



14-P-0318                                                                                       3
               Missouri and New Mexico. We performed site visits and conducted interviews at
               each of the sampled state’s DWSRF program offices except for Hawaii. We
               conducted all interviews for Hawaii via teleconference. We interviewed EPA
               Office of Water headquarters staff; and Regions 1, 6, 7 and 9 staff. We also
               reviewed:

                       The Safe Drinking Water Act Amendments of 1996.
                       The Code of Federal Regulations.
                       EPA regulations and guidance.
                       Guidance and documentation, IUPs, annual reviews, and the
                        comprehensive priority lists and fundable lists for the five states reviewed.
                       EPA performance evaluation plans and the EPA’s communications with
                        the states.

               To determine whether the EPA and state actions taken to address large balances
               of DWSRF unliquidated obligations reduced such obligations, we interviewed key
               EPA and state staff and analyzed DWSRF program documentation for state fiscal
               years (SFYs) 2010 through 2013. We determined the procedures used by the
               EPA Office of Water and the selected states, and tested key procedures. We also
               analyzed SFYs 2010 through 2013 DWSRF unliquidated obligation balances to
               determine whether balances have been reduced.

               To determine whether state projects to be funded by capitalization grants reflect
               the projects that may be funded, we compared state fundable lists of projects from
               SFYs 2010 through 2013 to projects funded for each respective year. We also
               determined when projects listed on fundable lists were actually funded.

Prior Audit Coverage
               We researched prior EPA OIG and U.S. Government Accountability Office
               (GAO) reports related to EPA’s DWSRF program. We noted one EPA OIG report
               and one GAO report that were pertinent to the program.

Table 1: Prior reports related to the DWSRF program
    Report No./Date                 Title                                Description
 EPA OIG 12-P-0102        Enhanced Coordination     This report stated that the DWSRF may never reach
                          Needed to Ensure          some communities with the highest number of
 December 1, 2011         Drinking Water State      health-based drinking water violations because:
                          Revolving Funds Are       (a) these communities have no contact with the state
                          Used to Help              DWSRF office and are not aware of the program;
                          Communicate Not           (b) they do not have technical, managerial or
                          Meeting Standards         financial capacity; or (c) they cannot afford a loan.
 GAO-02-125               Key Aspects of EPA's      This report concluded that the EPA is not taking full
                          Revolving Fund            advantage of the oversight tools currently available
 January 24, 2002         Program Needed to be      to monitor states’ implementation of the DWSRF
                          Strengthened              program.
Source: EPA OIG generated from Web search.



14-P-0318                                                                                              4
                                  Chapter 2
    Unused Funds Resulted in Missed Opportunities to
         Improve Drinking Water Infrastructure
            Actions taken by the EPA, four EPA regions and the five states we reviewed did
            not reduce DWSRF unliquidated obligation balances below 13 percent of the
            cumulative federal capitalization grants awarded. As of September 30, 2013, the
            states we reviewed exceeded 13 percent of unliquidated obligations by
            $231 million. The Safe Drinking Water Act requires that the Administrator create
            provisions to ensure that each state commits and expends funds allotted to the
            state as efficiently as possible. Until SFY 2013, the five states reviewed—
            California, Connecticut, Hawaii, Missouri and New Mexico—had executed small
            numbers of loans each year and had not maximized the use of all DWSRF
            resources, including the capitalization grant awards. Three of the five states
            reviewed did not use financial tools to assist in projecting future DWSRF funds
            and predict the number and value of projects needed to be ready for loan
            execution in any given year. When loans are not issued, intended drinking water
            improvements may not be implemented and states lose opportunities to infuse
            funds into their economy and create jobs.

Efficient Use of Funds Required
            The Safe Drinking Water Act requires that the Administrator create provisions to
            ensure that each state commits and expends funds allotted to the state as
            efficiently as possible. In turn, the DWSRF program final guidelines are codified
            in the Code of Federal Regulations (CFR) at 40 CFR Part 35 Subpart L, and
            require states to agree to commit and expend all funds as efficiently as possible
            and in an expeditious and timely manner.
.
            The EPA’s State Revolving Fund Management Handbook presents DWSRF
            management concepts and good financial managerial practices. It demonstrates
            that the EPA is aware of the importance of financial management and the
            importance of cash flow projections for revolving loan funds. The handbook
            indicates that fund management must be considered across the dimension of time
            to balance what can be accomplished in the present versus the future. Cash flow
            modeling is the principal technique for analyzing the financial impact of decisions
            over time given the financial complexities of revolving loan funds. While the
            handbook does not require that states perform cash projections of all DWSRF
            funds to determine the program loan capabilities, it is considered to be good
            financial management practice.




14-P-0318                                                                                       5
Unliquidated Obligations Remain High
            As of September 30, 2013, the DWSRF unliquidated balances for all five states
            reviewed remain high. In four of the five states, the unliquidated obligation
            balances increased from 2010. The five states reviewed had cumulative
            unliquidated balances of over $533 million, as shown in table 2:

            Table 2: Cumulative unliquidated obligation balances as of September 30, 2013
                                                                                        Percent change
                                     2010       2011          2012      2013            in balance from
                   States                 (Dollars stated in thousands)                   2010 to 2013
             California            $605,757 $557,557 $445,877 $357,523                        -41%
             Connecticut              26,044      26,412       39,384      34,736             33%
             Hawaii                   30,867      34,523       38,104      38,137             24%
             Missouri                 58,268      60,615       60,876      59,745              3%
             New Mexico              30,746       33,680      43,551       43,195             40%
             Total                 $751,682     $712,787    $627,792     $533,336
            Source: National Information Management System database and OIG analysis.

            The EPA Office of Water focused on an unliquidated obligation balance for each
            state of 2 years for a state’s grant award, which is approximately equal to
            13 percent of the cumulative federal capitalization grants awarded. Any state with
            a balance above this level is considered to have a high unliquidated obligation
            balance. The five states reviewed exceeded the level by more than $200 million,
            as shown in table 3.

            Table 3: Amount of states’ September 30, 2013 unliquidated obligation balance
            exceeding 13 percent of cumulative federal capitalization grants awarded
                                                                                       Amount
                                       Cumulative federal       Unliquidated          exceeding
                                           grants                obligations          13 percent
                      State                         (Dollars stated in the thousands)
             California                        $1,539,666               $357,523          $157,367
             Connecticut                          176,732                 34,736             11,761
             Hawaii                               159,377                 38,137             17,418
             Missouri                             289,028                 59,745             22,171
             New Mexico                           163,623                 43,195             21,924
             Total                             $2,328,426               $533,336          $230,641
            Source: National Information Management System database and OIG analysis.


            Actions to Reduce Unliquidated Obligations

            We found that the Office of Water, the four EPA regions and five states reviewed
            were all focused on reducing unliquidated obligations and have taken various
            actions to reduce unliquidated balances in the DWSRF program.



14-P-0318                                                                                             6
            California, which has the highest DWSRF unliquidated balance of all the states,
            decreased its balance by 41 percent between September 30, 2010, and
            September 30, 2013. Over the past 4 years, California’s Department of
            Public Health has taken a number of steps that have resulted in a reduction of the
            unliquidated obligation balance, including:

                  Cease the practice of committing funds to projects not ready to proceed.
                  Implement new terms and conditions in loan agreements to require no less
                   than quarterly the submission of claims on costs incurred.
                  Provide higher priority rankings for larger communities that absorb
                   smaller communities. This allows a small community that could not meet
                   technical and managerial requirements of the DWSRF program the ability
                   to meet requirements and be funded.
                  Increase staffing.
                  Separate planning and construction phases into two loans.
                  Use contractors to increase outreach and working with small and
                   disadvantaged communities with the application process and providing
                   technical assistance.
                  Improving pace of expenditures by awarding total funding agreements that
                   have exceeded annual cap grants over the last 3 years
                  The EPA’s Region 9 aided the California Department of Public Health in
                   developing a cash flow model to project future loan capabilities. The model
                   is being used to determine how the Department of Public Health will reach
                   the 120 percent commitment rate goal that the EPA has set for its program.

            Other states have also taken action to reduce unliquidated obligation balances.
            Connecticut developed a pipeline of projects, restructured its organization and
            revised its project ranking procedures to allow ready-to-proceed projects to be
            more readily funded. Hawaii conducted workshops called “road shows” to
            educate potential recipients about the benefits of the DWSRF program and
            encourage large systems to take loans. Missouri offered to pay for the initial
            engineering report, plans and specifications, as well as phase one reports to assist
            communities in using the DWSRF program. New Mexico changed the annual
            fundable list process to a quarterly process that requires loans be issued within
            3 months for projects on the fundable list. They also recently developed a cash
            flow model to anticipate resources available for loans and estimate the value of
            projects that need to be in the pipeline.

            The actions taken have enabled states to increase their number of annually executed
            loans. However, unliquidated obligation balances only decrease when loan
            recipients begin projects and request payments. Therefore, unliquidated obligations
            will not be reduced until payment requests are submitted against these loans.




14-P-0318                                                                                          7
Financial Projections of DWSRF Resources Needed to Maximize
Fund Utilization
                  The reasons for the low numbers of loans executed vary from state to state
                  because of unique challenges faced by each state. Challenges can include staffing
                  shortages, lack of focus on the DWSRF program and more attractive funding
                  sources. However, three of the five states reviewed did not use cash flow models
                  to assist in projecting the amount of DWSRF funds that would be available in the
                  future to aid those states in anticipating the number and value of projects needed
                  to be ready for loan execution in any given year. The other two states have only
                  recently begun to implement and use cash flow models.

                  To aid in decreasing DWSRF unliquidated obligation balances, state programs
                  need to project their present fund inflows and outflows of cash into the future.
                  The EPA’s State Revolving Fund Management Handbook1 states “cash flow
                  modeling/financial planning is the principal technique for analyzing the financial
                  impact of decisions over time, given the financial complexity of revolving loan
                  funds.” Cash flow modeling would help states confidently forecast the amount of
                  DWSRF dollars available so that they can anticipate the value of ready-to-proceed
                  projects needed each year and aid them in addressing high unliquidated balances.
                  We found the following:

                         Hawaii determines the number of loans it can commit using all DWSRF
                          fund sources, but does not have the projects ready to proceed; therefore, it
                          only executed a small portion of the projects on its fundable lists.
                         Connecticut’s Department of Public Health recently began to project the
                          amount of funds expected to be drawn down on projects and the respective
                          amount of DWSRF grant balances, but has not taken into account
                          repayments of principal, interest and retained earnings to project future
                          inflows.
                         Missouri does not perform financial projections to predict the amount of
                          all DWSRF funds that would be available in the future to finance projects.
                         California and New Mexico recently began to implement and use cash
                          flow models.

                  On April 19, 2013, the EPA issued California a notice of noncompliance which
                  determined that the state’s Department of Public Health had not timely and
                  efficiently committed and expended its DWSRF funds. While there were several
                  contributing factors to the state’s noncompliance, the EPA cited that the
                  Department of Public Health had not applied the modeling tools needed to
                  integrate financial and project activities and had not accurately accounted for loan
                  repayments into the fund. The EPA also stated that as a result the unexpended
                  funds lost millions of dollars of purchasing power for public health purposes
                  because of inflation, and the unspent funds do not support the revolving nature of

1
    EPA 832-B-01-003 April 2001.


14-P-0318                                                                                            8
            the fund. Region 9 aided California’s Department of Public Health in the creation
            of a cash flow model to project future program loan fund balances, which has
            provided a better way of ensuring that the DWSRF program sources are
            efficiently used. California staff told us that implementation of the cash flow
            model has helped them understand the value of the resources available.

Idle Funds Cause Diminished Results and Missed Opportunities
            Without financial projections to determine the amount of loans that can be
            executed with all DWSRF fund sources, $230,640,728 has not been committed
            and expended as efficiently as possible in the five states we reviewed. When loans
            are not issued and capitalization grant funds remain idle, the value of money is
            diminished, needed drinking water improvements are not implemented,
            communities do not receive the intended health benefits, and states miss
            opportunities to infuse funds into the state’s economy and create jobs. As a result,
            we consider the $230,640,728 as funds that could be put to better use based on
            implementation of the recommendations.

Recommendation
            We recommend that the Assistant Administrator for Water:

               1. Reduce unliquidated obligations by:

                       a. Working with states with high unliquidated obligations to use
                          financial tools to project future cash flows to aid in liquidating
                          balances by using those projections in planning for expending
                          funds in a timely and efficient manner.

                       b. Quarterly providing to the regions a summary of states that have
                          attended the cash flow analysis training and compare that with
                          states not achieving the goals of the 2014 strategy to identify states
                          that may need additional assistance.

Agency Comments and OIG Evaluation
            While the EPA disagreed with recommendation 1a, it described actions it had
            recently taken to address the issue of unliquidated obligations. On April 14, 2014,
            the Director, Office of Ground Water and Drinking Water, issued a strategy for
            reducing unliquidated obligations. The goals of the strategy are (a) to fully use
            funds from previous DWSRF grants (fiscal year 2013 and prior) by the end of
            September 2016 and (b) complete draw down of funds from future years’ grants
            within 2 years of the date of the award. The strategy includes a section on
            forecasting financing capacity through use of cash flow or similar analysis. The
            strategy states:




14-P-0318                                                                                      9
                   Cash flow modelling allows a state to determine the amount of
                   assistance its program can prudently provide in a given year and
                   can help a state assess the impacts of current year financing
                   decisions on future years’ financing capacity. Particularly when
                   used in conjunction with a robust list of fundable projects that are
                   ready to proceed, cash flow analysis can help states to maximize
                   the pace of project funding where supported by sound financial
                   management principles.

            In the 2014 strategy, the Director asked the regional water directors to encourage
            states not using cash flow analysis to participate in training offered. The EPA
            stated in the response that it believed this approach, framed within the expectation
            that states will work toward operating their DWSRFs to have unliquidated
            obligations at the lowest practical level while recognizing that state circumstances
            vary, will promote appropriate focus on grant fund liquidation.

            In response to recommendation 1, the Office of Ground Water and Drinking
            Water suggested we retain the spirit of the recommendation but rephrase as
            “Work with states” rather than “Require.” The EPA stated it started working with
            states on this initiative in the second quarter of fiscal year 2014 and that it is an
            ongoing activity.

            The 2014 strategy addresses the issue identified in our report—mainly, the
            reduction of prior-year DWSRF obligations. However, we are concerned that
            revising the recommendation to only ask the EPA to “work with states” to use
            financial tools to project future cash flows does not reflect a commitment to a
            specific action(s). As an alternative, we have revised the first recommendation to
            reflect the wording the EPA suggested and added an additional action to monitor
            states involvement in the cash flow analysis training. The OIG considers the April
            2014 strategy as responsive to recommendation 1a; however, they agency will
            need to provide a response, with corrective action dates, for recommendation 1b.
            The EPA should ensure that the 2014 strategy is implemented.

            Appendix A provides the agency’s full response to the recommendations.
            Appendix B provides the agency’s April 14, 2014, strategy for reducing
            unliquidated obligations issued to regional water division directors.




14-P-0318                                                                                      10
                                   Chapter 3
     More Ready-to-Proceed Projects Would Improve
             Drinking Water Infrastructure
            States’ fundable lists included in the intended use plan (IUP) of the capitalization
            grant application overestimate the number of projects that will receive loans
            during the current funding cycle. Less than one third of the projects on the
            fundable lists reviewed resulted in executed DWSRF loans within the time period
            covered by the current IUP. Federal regulations say the IUP must contain a
            fundable list of projects that are expected to receive assistance from available
            funds designated for use in the current IUP. Reasons why states execute a fraction
            of loans for the projects on their fundable lists varied, but we found that,
            generally, these states do not have a consistent “ready-to-proceed” definition.
            When projects are not funded and high unliquidated obligation balances occur,
            needed environmental improvements are delayed.

Fundable Lists Should Contain Projects Expected to Be Executed
Within 1 Year
            According to 40 CFR §35.3555, a state must prepare an annual IUP that describes
            how it intends to use the DWSRF capitalization grant to support the overall goals
            of the program. The Safe Drinking Water Act Amendments of 1996 requires
            states to annually submit an IUP that includes a list of projects to be assisted in
            the first fiscal year that begins after the date of the plan. Title 40 CFR Part 35
            states that the IUP must contain a comprehensive list of projects and a fundable
            list of projects. The EPA’s DWSRF Program Operations Manual, dated October
            2006, presents DWSRF management concepts and good financial managerial
            practices. It states that two lists of priority projects are included in the annual IUP:
            the comprehensive list and the fundable project list. From the comprehensive list,
            programs develop a fundable list of projects that are expected to receive
            assistance in the upcoming year. The fundable list of projects is developed based
            on projects that are ready to proceed during the current funding cycle.

            On December 2, 2011, the EPA Administrator sent a letter to all states providing
            them with steps that could be taken to expedite the flow of State Revolving Fund
            dollars into the state’s economy, including:

                   Draft assistance agreements for projects being funded through federal
                    capitalization so that they are ready to be signed upon award of the
                    capitalization grant.
                   Work closely with communities to build a pipeline of projects that are
                    ready to proceed so that contracts can be awarded and construction can
                    begin upon the award of assistance agreements.



14-P-0318                                                                                        11
States Overestimate Projects That Will Receive Funding
            Based on our review and comparison of the represented states’ SFY 2011 through
            2013 fundable lists and annual reports, fundable lists do not realistically represent
            those projects expected to receive DWSRF assistance in the corresponding SFYs.
            Only a fraction of the projects on the fundable lists result in executed DWSRF
            loans within the current IUP year, and generally, the value of the awards made is
            significantly less than the value of the projects on the states’ fundable lists. The
            regions we reviewed did not expect all of the projects listed on the fundable list to
            result in an executed loan agreement during that year. Fundable lists intentionally
            exceed the value of the grant to allow for unforeseen problems with projects that
            do not move forward as expected. However, for SFY 2011 through SFY 2013, the
            number of loans executed equal less than one-third of the projects listed. Hawaii
            executed loans equal to 7.9 percent of the number of projects listed; California
            executed the highest percentage, executing 31.1 percent of the number of projects
            listed on the fundable list. Table 4 compares the number and value of projects on
            states’ fundable lists to the number of loans actually made for SFYs 2011 through
            2013.

            Table 4: Number and value of projects on fundable lists and loans made by SFY
                                                  Total number of:                          Value of:
                                             Projects on
                                              fundable      Final loan           Projects on        Final loan
              SFY              State             list      agreements           fundable list      agreements
                          California                   145                27   $245,332,554        $235,315,624
                          Connecticut a                  0                 2              0           1,841,000
              2011        Hawaii                        69                 3    242,415,608           5,178,581
                          Missouri                      22                 5     38,990,258           2,974,900
                          New Mexico                    21                 5      27,815,000              2,640,035

                          California                    83                30     174,199,656        268,696,175
                          Connecticut                   88                 5      63,374,606          3,288,663
              2012        Hawaii                        76                 5     255,499,500              5,856,911
                          Missouri                      27                 6      41,626,606             14,826,684
                          New Mexico                    29                 0      31,113,020                      0

                          California                    77                38     235,534,658        265,239,107
                          Connecticut                  102                39     124,319,917             34,170,363
              2013        Hawaii                        83                10     267,649,500             27,632,906
                          Missouri                      20                 9      55,906,704             13,552,333
                          New Mexico                    22                16      37,779,934             25,526,002
            Source: EPA OIG analysis of state data.

                    a
            Note:       Connecticut indicated it did not create a fundable list in SFY 2011 due to the
                        heavy workload created by the American Recovery and Reinvestment Act.




14-P-0318                                                                                                        12
            Due to the generally low number of loans made relative to projects on the states’
            fundable lists, subsequent states’ fundable lists contain a high percentage of
            projects that carried over from prior years. Figure 3 shows the percent of projects
            included on the fundable list that were repeated from previous fundable lists.
            Figure 3: Percentage of projects on state fundable lists that carried over from prior years

                                           SFY 2011       SFY 2012       SFY 2013

                                                                                81%
                                            72%                                              71%
                                         68%            68%67%
                            57%                                55%
                                     49%
                46%
                   42%


                                                                                                  22%
                                                                                         14%
                                                                              11%
                                                                         0%

                    California          Hawaii           Missouri        Connecticut     New Mexico
            Source: EPA OIG analysis of state data.

                    a
            Note:       Connecticut indicated it did not create a fundable list in SFY 2011 due to the
                        heavy workload created by the American Recovery and Reinvestment Act.

            Federal regulations state that projects on fundable lists should be projects that are
            expected to receive assistance from available funds designated for use in the
            current intended use plan. However, we found that many projects are listed on
            state fundable lists for several years before they are finally awarded funds.
            Table 5 shows the year a project was first listed on the fundable list for the loans
            executed in SFY 2013:

            Table 5: Projects first appeared on state fundable lists
                                       Number of          Project originated on respective fundable lists
                                     loans made in
                    State              SFY 2013           SFY 2010       SFY 2011       SFY 2012         SFY 2013
             California                           a38               15             8              2             9
             Hawaii                                10                3             5              2             0
             Missouri                               9                3             2              3             1
             Connecticut                           39                4          bN/A             35             0
             New Mexico                           a16                2             7              0             4
            Source: EPA OIG analysis of state data.

            Notes: a Four California and three New Mexico projects were not identified by auditors on the
                    SFY 2010–2013 state fundable lists.
                   b Connecticut indicated it did not create a fundable list in SFY 2011 due to the
                    heavy workload created by the American Recovery and Reinvestment Act.



14-P-0318                                                                                                       13
Projects on Fundable Lists Not Ready to Proceed to Construction
            The states we reviewed executed loans for a fraction of the projects on their
            fundable lists for a variety of reasons. Generally, we found that these states do not
            have a consistent definition of “ready to proceed.” According to the EPA’s
            DWSRF Program Operations Manual dated October 2006, projects on the
            fundable list should be ready to proceed. However, EPA has not defined “ready to
            proceed” in its regulations, although EPA best practices suggest that projects are
            ready to proceed when a signed construction contract is in place. States, however,
            do not have a consistent definition of “ready to proceed.”

                  Missouri places projects on the fundable list once an applicant has
                   submitted a complete facility plan for approval and has established an
                   acceptable debt instrument for their proposal. This is the state’s definition
                   of “ready to proceed.” According to Missouri staff, when projects are
                   initially placed on the fundable list, they are not necessarily construction
                   ready, and in most cases it takes anywhere from 18 to 24 months for a
                   project to proceed through the state’s approval process. Therefore,
                   “readiness to proceed” can be interpreted as ready to proceed with the
                   state review process rather than with construction.

                  The Hawaii fundable list contained projects that had construction start
                   dates that were not within the current fiscal year, and contained projects
                   that had unrealistic start dates. Hawaii staff informed the OIG that
                   although there is no definition for “ready to proceed,” the state deems
                   projects ready to proceed in terms of how soon they may start construction
                   or, at the very least, how soon they may issue a “notice to proceed” to a
                   contractor.

                  California changed the definition of its fundable list in the 2010–2011
                   IUP because it did not represent the list of projects that would be awarded
                   funds within the current fiscal year. Prior to this, California’s fundable list
                   was synonymous to its Invited Project List—or those projects that were
                   invited to submit a full application for funding from available funds.
                   California staff told us that the term “ready to proceed” is not explicitly
                   defined by the state, but the state views projects that are ready to proceed
                   as those projected to be ready to enter into a funding agreement.

                  New Mexico recently added “ready to proceed” to its criteria for including
                   projects on the fundable list. New Mexico adopted the definition of “ready
                   to proceed” as any project that will be funded within the next 3 months.
                   Prior to 2013, whether a project was ready to proceed was not a
                   consideration for including projects on New Mexico’s fundable list.

                  Connecticut also recently added “ready to proceed” to its project-ranking
                   criteria. The state has a 2-year project-ranking process for projects that are


14-P-0318                                                                                       14
                   ready to proceed with the activities as explained in the projects’ workplan
                   within the next 2 years. The projects that are deemed ready to proceed in
                   the first year are ranked and placed on the first year’s list. Those projects
                   that were ready to proceed in the second year would be placed in the
                   second year’s list.

            Staff at all five states indicated that, in the past, they had difficulty getting
            projects ready to proceed. Some states are still having difficulty getting enough
            projects ready for loan execution to reduce the unliquidated obligation balance to
            the value of 2 years of grants. Without a process to develop project capacity so
            that there is a succession or pipeline of projects ready to proceed, it will be
            difficult to reduce unliquidated obligation balances.

            EPA regional offices need to improve their review of state fundable lists. States
            submit their IUPs in anticipation of their annual capitalization grant. EPA staff
            from one regional office told us that their review is not generally focused on the
            fundable list. Staff from another regional office informed us that projects on one
            state’s fundable list are not necessarily ready to proceed, despite the fact that
            federal regulations required such projects to be funded within the time period
            covered by the IUP (which is typically 1 year). Staff from another regional office
            told us that the spirit of the fundable list is to identify projects ready to proceed,
            but did not know why the projects on the fundable list did not always receive
            funding.

Environmental Improvements Are Delayed
            Since states use the fundable lists to justify their annual capitalization grants, the
            fundable lists should communicate to the EPA and the public a practical list of
            projects that will be funded with taxpayer money. When projects are not ready to
            proceed, expected environmental benefits are delayed. The EPA’s priority is to
            move DWSRF funds as quickly as possible, to carry out projects on the ground to
            deliver improved environmental and public health protection. To accomplish this,
            states need to work with their communities to ensure fundable lists’ projects are
            ready to proceed with construction so that project loans can be executed and
            construction can begin upon the receipt of annual capitalization grants. It is this
            pipeline of ready-to-proceed-with-construction projects that should comprise
            states’ annual fundable lists. Doing so will ensure that states award a high
            percentage of these projects, resulting in improved environmental and health
            protection, and reducing unliquidated obligations.




14-P-0318                                                                                       15
Recommendations
            We recommend that the Assistant Administrator for Water:

               2. Develop guidance for states on what projects are to be included on the
                  fundable list, including a definition for “ready to proceed.”

               3. Require that EPA regions, when reviewing the capitalization grant
                  application for states with high unliquidated obligation balances, ensure
                  states have adopted the EPA’s guidance on the definition of “ready to
                  proceed” and use that definition in developing the fundable list.

               4. Communicate to states having high unliquidated obligation balances that
                  they should adopt the best management practice of having a well-
                  organized process to ensure that projects on the fundable list are ready to
                  proceed to loan execution within the current IUP year.

Agency Comments and OIG Evaluation
            The EPA disagreed with recommendations 2 and 3 and agreed with
            recommendation 4.

            In response to recommendation 2, the Office of Ground Water and Drinking
            Water agreed that it is important to assist states in developing a common
            understanding of what “ready to proceed” means in the context of unliquidated
            obligation reduction. This issue is highlighted in the April 2014 strategy, which
            emphasizes the need for projects to be ready to proceed in that states should plan
            to award funding for projects that are ready to begin construction. Projects on the
            fundable list should be immediately ready, or be poised to be ready, to enter into
            assistance agreements. The Office of Ground Water and Drinking Water indicated
            it will be working with regions to assist states in reflecting this approach in their
            fundable lists.

            The Office of Ground Water and Drinking Water recommended dropping
            recommendation 2 because it is closely related to recommendation 3. The OIG
            does not agree that the recommendation should be dropped. However, we believe
            the agency’s action as detailed in the April 2014 strategy should address
            recommendation 2. Therefore, we consider recommendation 2 closed.

            In response to recommendation 3, the Office of Ground Water and Drinking
            Water said, “EPA’s Regions are expected to work with states to implement the
            strategy and to ensure that appropriate thought and care have been taken in
            developing states’ fundable lists.” During our exit conference, the Drinking Water
            Infrastructure Branch chief explained that the IUP review process is designed to
            ensure the strategy will be implemented. However, the Office of Ground Water
            and Drinking Water did not provide any instruction, such as an updated standard



14-P-0318                                                                                     16
            operating procedure, or a memorandum that requires regions to consider states’
            incorporation of the strategy in their review of the states’ IUP. The OIG believes
            the agency needs to provide an action, or future action, and a corrective action
            date to address the recommendation. The audit resolution process will be used to
            resolve the recommendation

            In response to recommendation 4, the Office of Ground Water and Drinking
            Water agreed with the recommendation. The practices outlined in the April 2014
            strategy memo focus on projects that are ready to proceed to construction upon
            financing and advises that assistance for planning and design be awarded
            separately if projects are not expected to proceed to construction in the near term
            or project year. The strategy also calls for state adoption of project bypass
            procedures, recognizing that some projects on the fundable list may, for
            unanticipated reasons, not be ready to proceed as originally envisioned; and for
            the development of fundable lists that are sufficiently robust to facilitate the use
            of bypass procedures if needed. The EPA issued the strategy to the regional water
            division directors on April 14, 2014, and the strategy has been shared with the
            states. We consider this recommendation to be closed.

            Appendix A provides the agency’s full response to the recommendations.
            Appendix B provides the agency’s April 14, 2014, strategy for reducing
            unliquidated obligations issued to regional water division directors.




14-P-0318                                                                                     17
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed     Agreed-To
    No.      No.                         Subject                           Status1      Action Official           Date      Amount       Amount

     1        9    Reduce unliquidated obligations by:

                      a. Working with states with high unliquidated          C       Assistant Administrator    4/14/14       230,641
                         obligations to use financial tools to project                      for Water
                         future cash flows to aid in liquidating
                         balances by using those projections in
                         planning for expending funds in a timely and
                         efficient manner.

                      b. Quarterly providing to the regions a summary        U       Assistant Administrator
                         of states that have attended the cash flow                         for Water
                         analysis training and compare that with
                         states not achieving the goals of the 2014
                         strategy to identify states that may need
                         additional assistance.

     2       16    Develop guidance for states on what projects are to       C       Assistant Administrator    4/14/14
                   be included on the fundable list, including a                            for Water
                   definition for “ready to proceed.

     3       16    Require that EPA regions, when reviewing the              U       Assistant Administrator
                   capitalization grant application for states with high                    for Water
                   unliquidated obligation balances, ensure states
                   have adopted the EPA’s guidance on the definition
                   of “ready to proceed” and use that definition in
                   developing the fundable list.

     4       16    Communicate to states having high unliquidated            C       Assistant Administrator    4/14/14
                   obligation balances that they should adopt the best                      for Water
                   management practice of having a well-organized
                   process to ensure that projects on the fundable list
                   are ready to proceed to loan execution within the
                   current IUP year.




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0318                                                                                                                                      18
                                                                                   Appendix A

                  Agency Response to Draft Report

                                      (Received April 25, 2014)

MEMORANDUM

SUBJECT:      Response to the Office of Inspector General Draft Project No. OA-FY13-0214,
              “Unliquidated Obligations Resulted in Missed Opportunities to Improve Drinking
              Water Infrastructure,” dated March 12, 2014

FROM:         Nancy K. Stoner
              Acting Assistant Administrator

TO:           Arthur A. Elkins, Jr.
              Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. The following is a summary of the agency’s overall position, along with its position on
each of the report recommendations. For those report recommendations with which the agency
agrees, we have provided either high-level intended corrective actions and estimated completion
dates to the extent we can or reasons why we are unable to provide high-level intended corrective
actions and estimated completion dates at this time. For those report recommendations with
which the agency does not agree, we have explained our position.

AGENCY’S OVERALL POSITION

The EPA agrees that the timely expenditure of federal funds for infrastructure is needed to
ensure maximum use of resources and advance investment in the reliable delivery of safe
drinking water. We welcome the IG’s recommendations on potential improvements to this
program in an effort to enhance the EPA’s Drinking Water State Revolving Fund program. The
EPA would like to acknowledge the role the primacy states have in this program. This might
pose a programmatic challenge when determining how the EPA can adopt some of the corrective
actions cited in the IG’s report.




14-P-0318                                                                                     19
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

No. Recommendation                       High-Level Intended Corrective            Estimated
                                         Actions                                   Completion by
                                                                                   Quarter and FY
4   Communicate to States having         The practices outlined in the             OGWDW’s
    high unliquidated obligation         DWSRF ULO Reduction Strategy              DWSRF ULO
    balances that they should adopt      memo focus on projects that are           Reduction
    the best management practice of      ready to proceed to construction          Strategy was
    having a well-organized process to   upon financing and advises that           released on April
    ensure that projects on the          assistance for planning and design        14, 2014;
    fundable list are ready to proceed   be awarded separately if projects are     progress will be
    to loan execution within the         not expected to proceed to                regularly tracked
    current IUP year.                    construction in the near term or          and reinforcement
                                         project year. The Strategy also calls     of the Strategy’s
                                         for state adoption of project bypass      messages will be
                                         procedures, recognizing that some         ongoing.
                                         projects on the fundable list may, for
                                         unanticipated reasons, not be ready
                                         to proceed as originally envisioned;
                                         and for the development of fundable
                                         lists that are sufficiently robust to
                                         facilitate the use of bypass
                                         procedures if needed. Bypass
                                         procedures will enable a state to
                                         efficiently reach a ready-to-proceed
                                         project further down the list if
                                         needed. OGWDW also suggests
                                         that the IG’s report reflect that it is
                                         appropriate for states’ fundable lists
                                         to contain projects (immediately
                                         ready-to-proceed or poised to be so)
                                         of cumulative value that sufficiently
                                         exceeds the amount a state expects
                                         to provide in assistance in the period
                                         covered by the IUP.




14-P-0318                                                                                      20
Disagreements:
No. Recommendation                       Agency Explanation/Response           Proposed
                                                                               Alternative
1    Require States with high            The draft report repeatedly asserts   Retain the spirit of
     unliquidated obligations to use     that OGWDW has established a          the
     financial tools to project future   ULO target of less than 13 percent    recommendation
     cash flows to aid in liquidating    of the cumulative federal             but re-phrase as
     balances by using those             capitalization grants awarded. This “Work with
     projections in planning for         is a mischaracterization. During the States” rather than
     expending funds in a timely and     time the OIG was conducting           “Require.” Started
     efficient manner.                   research for this report, OGWDW       working with
                                         was developing a strategy to address states on this
                                         ULO in the long term. Metrics         initiative in
                                         under consideration included a        2QFY14; it’s an
                                         metric based on states holding no     ongoing activity.
                                         more than two years-worth of
                                         capitalization grants as ULO at any
                                         given time. At the time of initial
                                         discussion, two years-worth of
                                         capitalization grants would have
                                         been approximately 13% of the
                                         cumulative federal capitalization
                                         grants awarded. OGWDW has
                                         since adopted a metric based on
                                         pace of funds liquidation as an
                                         appropriate indicator that conveys
                                         an understanding of assistance
                                         agreements being awarded and
                                         projects being initiated in a timely
                                         fashion (independent of percentage,
                                         which can mask liquidation status
                                         due to the accumulation of
                                         appropriations over time). On April
                                         14, 2014, the Office Director
                                         emailed the Strategy to the Regional
                                         Water Division Directors. The
                                         Strategy includes objectives
                                         targeted towards spend-down of
                                         legacy ULO by the end of FY16 and
                                         management of future ULO based
                                         on liquidation of federal grant funds
                                         24 months from the date of a state’s
                                         capitalization grant award,
                                         respecting that there will be
                                         differences among states.
                                         OGWDW believes that this


14-P-0318                                                                                    21
                                          approach, framed within the
                                          expectation that states will work
                                          towards operating their DWSRFs to
                                          have ULO at the lowest practical
                                          level while recognizing that state
                                          circumstances vary, will promote
                                          appropriate focus on grant funds
                                          liquidation. OGWDW requests that
                                          the memorandum be included as an
                                          appendix to the IG’s report.

2    Develop guidance for States on       OGWDW agrees that it is important        This
     what projects are to be included     to assist states in developing a         recommendation is
     on fundable list, including a        common understanding of what             closely related to
     definition for “ready to proceed”.   “ready to proceed” means in the          Recommendation
                                          context of ULO reduction. This           3. OGWDW
                                          issue is highlighted in the Strategy     recommends
                                          which emphasizes the need for            dropping
                                          projects to be ready to proceed in       Recommendation
                                          that states should plan to award         2 and modifying
                                          funding for projects that are ready to   Recommendation
                                          begin construction; and should           3 as suggested
                                          generally separate assistance for        next.
                                          planning and design from assistance
                                          for construction. We will be
                                          working with Regions to assist
                                          states in reflecting this approach in
                                          their fundable lists.
3    Require that EPA Regions, when       EPA’s Regions are expected to            OGWDW
     reviewing the capitalization grant   work with states to implement the        recommends
     application for States with high     Strategy and to ensure that              modifying
     unliquidated obligation balances,    appropriate thought and care have        Recommendation
     ensure State have adopted the        been taken in developing states’         3 to “Regions
     EPA’s guidance on the definition     fundable lists. The Strategy also        should work with
     of “ready to proceed” and use the    highlights the potential for states to   States to improve
     definition in developing the         use DWSRF loan or set aside funds        processes for
     fundable list.                       to assist water systems with project     accessing project
                                          conception, planning and design          readiness to
                                          leading to readiness to proceed to       proceed to
                                          construction.                            construction, or to
                                                                                   plan/design as
                                                                                   appropriate.




14-P-0318                                                                                       22
Contact Information:

If you have any questions regarding this response, please contact Peter Grevatt, Director of the
Office of Ground Water and Drinking Water on 202-564-3750 or Elizabeth Corr at 202-564-
3798.

Attachments:
Drinking Water State Revolving Funds Unliquidated Obligations Reduction Strategy
National Priorities for the Drinking Water State Revolving Fund Program
Maximizing the Benefits of the Drinking Water State Revolving Fund through Efficient Federal
Funds Management Practices
Letter to Don Chapman, Director of California Department of Public Health

Cc:
Mike Shapiro
Peter Grevatt
Michael Mason
Marilyn Ramos




14-P-0318                                                                                          23
                                                                                     Appendix B

             April 14, 2014 Office of Water’s Strategy
                                    (Received April 25, 2014)


MEMORANDUM


SUBJECT:       Drinking Water State Revolving Fund (DWSRF) Unliquidated Obligations (ULO)
               Reduction Strategy

FROM:          Peter Grevatt, Director
               Office of Ground Water and Drinking Water

TO:            Water Division Directors
               Regions I-X

This memorandum presents a national strategy to reduce unliquidated obligations (ULO) under
the Drinking Water State Revolving Fund (DWSRF). DWSRF ULO are unspent funds from
grants provided to states by the Environmental Protection Agency to assist drinking water
systems in financing needed infrastructure improvements. States may also use a portion of their
DWSRF grant funds as set asides for other important public health protection purposes including
helping water systems, particularly small systems, strengthen their technical, managerial and
financial capacity; implementing state Public Water System Supervision (PWSS) programs; and
providing support for source water protection. The DWSRF ULO reduction strategy is directed
to the timely expenditure of federal funds for these activities and supports our broader collective
goal of maximizing the use of all DWSRF resources to advance investment in the reliable
delivery of safe drinking water to the American people.

The strategy focuses on two key objectives: 1) liquidation of past years’ grant funds and 2)
maintenance of lower levels of ULO in future years. These objectives are framed within the
expectation that states will work towards operating their DWSRFs to have ULO at the lowest
practical level while recognizing the varying institutional and financial circumstances of each
state. The objectives are accompanied by a set of practices to assist states and to encourage them
to operate the best infrastructure financing programs they are able within their respective
institutional frameworks. These objectives and practices are described in further detail below.
The strategy’s overall approach is further reinforced by the “best practices” identified by both the
Council of Infrastructure Financing Authorities (CIFA) and the Association of State Drinking
Water Administrators (ASDWA).

The strategy evolved from a series of consultations with states, CIFA, ASDWA, and you and
your Regional DWSRF and PWSS staffs. The strategy’s objectives and practices have received
positive feedback from CIFA’s and ASDWA’s boards of directors, reflecting the continuing
strong emphasis that these organizations place on sound DWSRF funds management. I


14-P-0318                                                                                        24
appreciate your thoughtful input and perspectives and your acknowledgement of the multiple
aspects of DWSRF funds utilization that need to be addressed collaboratively now and into the
future of the program to ensure timely, expeditious and efficient use of these federal dollars. The
strategy also builds on my memorandum to you of September 12, 2013, which describes
flexibilities that states have under DWSRF regulations to help in addressing certain aspects of
ULO, including use of federal funds on a first-in first-out (FIFO) basis; bypass procedures for
projects not yet ready to proceed; funds use equivalence for additional subsidy and green
projects; and funds reserve authority for DWSRF set asides. These flexibilities are already used
by many states and will enable others to accelerate their efforts to spend their DWSRF grant
funds.

I want to express my appreciation for your support and that of your staffs in the development and
early implementation of key aspects of this strategy. An important step that all Regions took
working with states in 2013 was to award all DWSRF state grants in the fiscal year of
appropriation. The state associations have also endorsed this step. We will need to continue on
this foundation of prompt grant awards in 2014 and future years. Your continued engagement on
these issues will be essential to assure the full, timely use of these funds to address high priority
public health protection needs of water systems within each state.

Strategic Objectives

The strategy aims to reduce DWSRF ULO for both loan and set aside funds to lower yet
practical levels, targeted to occur within financially manageable timeframes as indicated by the
experience of states with low ULO, while respecting that there will be differences among states.
This aim is reflected in the strategy’s objectives:

   (1) Full utilization of funds from previous DWSRF grants (FY 2013 and prior years’ funds)
       by the end of September 2016.

       These grant funds may be referred to as “legacy ULO” as they will have been available
       for a significant period of time by the end of fiscal year 2016. These loan and set aside
       funds are a focus of immediate concern and attention. I encourage you to focus most
       intensively on states with higher ULO while ensuring that others remain on their paths to
       meet or continue to stay within this objective.

   (2) Complete draw down of funds from future years’ grants within two years from the date of
       grant award.

       This objective addresses the maintenance of lower ULO in the future to support timely,
       expeditious and efficient use of DWSRF grant funds for both loan and set aside
       assistance. The purpose is to prevent accumulation of grant funds and minimize the
       number of open grants. States that are meeting or exceeding this objective are




14-P-0318                                                                                         25
       encouraged to continue to do so. Regions are asked to work closely with all other states
       to reduce carriage of ULO and manage within the objective.1

Practices

The strategy focuses on fundamental DWSRF program management practices, with heightened
emphasis on approaches that can help reduce ULO. Many states are already successfully using
these “best practices” to support sound funds management and timely public health protection. I
am asking you to join me in working with states to adopt the following practices, directed toward
the strategic objectives, where needed:

   (1) Focus on Ready-To-Proceed Projects. Proactive efforts by states to help get projects
       ready to proceed to financing and to ensure that construction of funded projects is
       initiated on schedule represent an investment in protecting the health of our communities.
       States have options available through the use of either DWSRF loan funds or set aside
       funds, or both, to work with water systems at each phase, from project conception
       through planning and design, to ensure that priority infrastructure projects are ready to
       proceed to construction. State financial assistance for project planning and design can
       offer opportunities for water systems, especially small systems, in preparing projects for
       construction. States are strongly advised to ensure that construction funding for projects
       on the fundable list is not awarded until projects are ready to begin construction. If
       DWSRF funds are provided up front for planning and design, those funds should be
       awarded separately from funds for construction, unless the project is assured to proceed
       to construction within the near term; for example, in the same program year.

   (2) Develop a Robust List of Fundable Projects. A robust fundable list contains projects
       of cumulative value that sufficiently exceeds the amount a state expects to provide in
       assistance in the period covered by its Intended Use Plan (IUP). Projects on the fundable
       list should be immediately ready, or be poised to be ready, to enter into assistance
       agreements. A well-developed fundable list affords a state the option to bypass projects
       not ready for financing due to unanticipated issues. Incorporation of bypass procedures
       into IUPs enables states to efficiently advance ready projects, while appropriate use of
       these procedures facilitates project timeliness and expeditious funds use for responding to
       priority public health needs. Solicitations by states of water system projects needing
       capital investment to protect public health underpin the development of the
       comprehensive project lists from which fundable lists are drawn and are an important

       1
         Some states, particularly with respect to set aside funds, may face challenges that could
       constrain their efforts. In such instances, states in collaboration with Regions should
       carefully consider, wherever possible, alternative approaches for using the funds in the
       timeliest manner possible to achieve their intended public health protection purposes.
       Additional time to use set aside funds is envisioned not to extend beyond twelve months.



14-P-0318                                                                                       26
      early step; states’ efforts to ensure that water systems within their jurisdictions are well-
      informed of the financing opportunities available through the DWSRF are key to support
      this process.

   (3) Forecast Financing Capacity through Use of Cash Flow or Similar Analysis.
       Understanding the relationships between future incoming funds, projected disbursements
       and future project needs is a powerful tool that states can use to optimize the productivity
       of all of their DWSRF funds. Incoming funds include the federal capitalization grant and
       state match, as well as principal and interest payments on loans, leveraged bond proceeds
       and fees. Cash flow modelling allows a state to determine the amount of assistance its
       program can prudently provide in a given year and can help a state assess the impacts of
       current year financing decisions on future years’ financing capacity. Particularly when
       used in conjunction with a robust list of fundable projects that are ready to proceed, cash
       flow analysis can help states to maximize the pace of project funding where supported by
       sound financial management principles. It can also assist states in moving funds more
       quickly to reimburse project expenditures, supporting expeditious draw on federal and
       other sources of funds. I ask that you encourage states not using cash flow analysis to
       participate in training offered by my office to facilitate their understanding of the
       techniques and conditions that support this approach and that you work with them to
       determine how its use might enhance their ability to finance needed drinking water
       infrastructure.

   (4) Manage Set Aside Accounts to Reflect the Pace of Funds Use. Set aside funds are a
       hallmark of state flexibility under the DWSRF program and are taken by states for a
       variety of purposes, such as technical assistance, PWSS program management and source
       water protection, as well as for planning and design grants for project readiness. In
       taking set asides, states have options that they can exercise to support effective use of
       these funds while minimizing ULO. States that have long-term projects funded with set
       aside funds can reserve the authority to take funds from a future grant, in lieu of the
       current grant, to support these multi-year projects. States may reserve the authority for
       the two percent, four percent and ten percent set asides. Once authority has been reserved
       it does not expire and may be exercised by the state against any future capitalization
       grant. Other approaches that may be useful to a state in managing set aside accounts
       include adjusting the amounts taken from one year to the next to reflect actual pace of
       spending; and transferring accumulated unused set aside funds to the loan fund.

   (5) Draw Down Federal Funds and State Match First. States have several sources within
       their drinking water revolving funds from which to draw funds for reimbursement of
       project expenditures. Please encourage states to draw federal capitalization grant funds
       and state match funds before using other funds, to the extent possible, to cover these



14-P-0318                                                                                        27
       reimbursements and reduce ULO. This approach of prioritizing federal and state match
       draw down can be informed and facilitated by cash flow analysis.

   (6) Accelerate Federal Cash Draws through Prompt Invoicing. To help manage ULO,
       please encourage states to work with assistance recipients to achieve submission of
       invoices as promptly as possible (such as monthly, as indicated by national association
       “best practices”) and to expedite review of project payment requests to effect timely cash
       draws of federal capitalization grant funds.

These practices are dynamic and interactive. My staff will continue to work with staff in the
Regions and states and state associations to promote these practices, drawing on the experience
of states in reducing and maintaining low ULO as well as ongoing efforts by CIFA and ASDWA
to advance cash flow approaches and set-aside management.

Strategy Implementation

This strategy is for immediate implementation. I advocate that you confer closely with states in
your Region to put these practices in place as needed to support ULO reductions and to position
states as much as possible to achieve the strategy’s objectives, recognizing that states present a
wide range of circumstances and starting points relative to the objectives and in utilizing the
supporting practices. For states that currently meet or exceed the objectives, it will be important
to ensure that these achievements are maintained. For others, your dedicated efforts to assist in
developing a sound and sustainable path to meet the objectives will be critical. For those states
understand any factors that may impede meeting the objectives, while working to attain the
lowest ULO balances possible.

To further assist you, I will make my staff available to consult with your staff and any state
officials that you identify as needing information or technical assistance. My staff has been
tracking ULO and will continue to provide this information to your staff on a monthly basis to
facilitate your frequent evaluation of each state’s progress and assist you in identifying where
further assistance to states is needed. I will continue to evaluate our collective efforts and will
seek your input should we need to reinforce this strategy to achieve its purpose of significantly
lowering ULO levels.

My office is committed to support you and the states. My staff recently conducted a webinar in
collaboration with state and regional presenters on cash flow analysis as a recommended tool to
support timely, expeditious and efficient use of funds. Additional webinars and materials are
planned that will further address this and other financial management aspects of the DWSRF
program. As you work in consultation with states to understand their individual circumstances,
you may identify other needs and opportunities for overcoming hurdles to reducing ULO. I am
available upon your request to discuss ways in which my office might be able to assist. There
may also be opportunities for states to support each other through transfer of knowledge from
direct experience and use of best practices. I would be happy to communicate with states’
national organizations to assist in brokering these kinds of state-to-state relationships.



14-P-0318                                                                                             28
Programmatic mechanisms are also available to you and may be useful in working with states to
attain ULO reductions. These include specifying state DWSRF grant budget and performance
periods, and grant conditions, if needed; state changes in Intended Use Plans; and, if appropriate,
state modifications to DWSRF operating agreements which might be useful in documenting
state-administered financial processes. While EPA’s grants policy allows up to seven years for
full expenditure of open grants, the DWSRF regulations call for the expenditure of all funds as
efficiently as possible, in an expeditious and timely manner. Implementation of this strategy
across the national DWSRF program will promote a focus on expeditious liquidation of grant
funds to ensure that appropriated dollars are being used to address critical public health needs in
a timely manner.

You may also find it helpful to track the pace of states’ implementation of the above-described
strategic objectives, as well as use of the practices, as you evaluate whether the strategy’s
objectives are being achieved in your Region. I will be doing so on a regular basis to support
collaboration with you on achieving progress in ULO reduction. Together we need to carefully
evaluate the efforts of each state in ULO reduction. I look to you to actively ascertain that a state
is making or has made sufficient progress towards sound management of its DWSRF funds and,
if warranted, to take appropriate action to ensure proper and timely funds use.

I want to thank each of you and also convey my appreciation to CIFA, ASDWA and their
respective board members for sharing insights and expertise in the development of this strategy.
I look forward to working with you and the states to ensure the timely use of DWSRF funds for
public health protection. Please contact me or have your staff contact Chuck Job, Chief,
Infrastructure Branch, at (202) 564-3941 or job.charles@epa.gov at any time with questions or to
share ideas to advance this important initiative.




14-P-0318                                                                                         29
                                                                            Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Water
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Water
Director, Office of Ground Water and Drinking Water, Office of Water
Audit Follow-Up Coordinator, Office of Water




14-P-0318                                                                           30
